                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-12-08-0056                                                                   Page 1 of 1



         We received an allegation that Complainant's 1 College2 had terminated his employment in
         retaliation for his claims that the College mismanaged the handling of Davis-Bacon Act (DBA)
         certification requirements on an American Recovery and Reinvestment Act (ARRA) funded NSF
         award3 .

         Pursuant to ARRA's prohibitionagainst retaliation, our office conducted an investigation of the
         reprisal claim and issued a Report of our findings to NSF. We determined that the College did
         not know about the Complainant's claims when it terminated him for preexisting performance
         issues, and that consequently the disclosure could not have affected the decision to terminate.
         The lack of knowledge occurred because the Complainant commingled the disclosure with an
         administrative task in such a way that the disclosure was not evident as such. Furthermore, the
         Complainant did not independently discover the DBA issue, but instead learned of it through his
         exposure to the College's preexisting review of the issue, which it conducted in response to an
         inquiry from NSF.

         Based on our Report, NSF issued a Final Decision that the awardee presented clear and
         convincing evidence that it would have terminated Complainant's employment notwithstanding
         his allegation that the College mismanaged DBA certification requirements.

         As part of our investigation of the alleged reprisal, we evaluated the merits of the DBA issue.
         We did not find evidence to support the allegation that the College mismanaged the DBA
         certification requirements.

         Accordingly, this case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)
